OIG Investigative Reports, Six Charged in Scheme to Steal Federal Funds Meant for Adult Education
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigative Reports
FOR IMMEDIATE RELEASE:
June 2, 2004
U.S. Department of Justice
United States Attorney
Eastern District of Pennsylvania
615 Chestnut Street - Suite 1250
Philadelphia, Pennsylvania 19106-4476
(215) 861-8200
Six Charged in Scheme to Steal Federal Funds Meant for Adult Education
PHILADELPHIA - United States Attorney Patrick Meehan, Special Agent-in-Charge, Federal Bureau of Investigation Jeffrey Lampinski, Special Agent-in-Charge, Internal Revenue Service Jerome Lisuzzo, and Special Agent-in-Charge William Hamel of the Inspector General's Office, Department of Education today announced the filing of an Indictment1 charging defendants Delores Weaver, Faridah Ali, a/k/a "Rita Spicer," Lakiha Spicer, a/k/a "Kiki," Azheem Spicer, a/k/a "Osh," and Eugene D. Weaver, III, with conspiracy, mail fraud, wire fraud, and theft concerning programs receiving federal funds. Lakiha Spicer and Zaynah Rasool were also charged with false statements to the grand jury.
According to the indictment, Delores Weaver, while serving as the Director of the Adult Basic Education program at the Community College of Philadelphia ("CCP") and Faridah Ali, the Assistant Director of Education for the Sister Clara Muhammad School ("SCMS"), located at 4700 Wyalussing Avenue in West Philadelphia, carried out a fraudulent scheme from the Fall of 1999 through December 2001, to obtain hundreds of thousands of dollars of public funds, earmarked to pay for a CCP program to improve adult literacy and provide for job training.  Weaver arranged for SCMS to become a neighborhood site for the CCP where courses such as "English as a Second Language" were offered on a non-credit, no-cost basis to adult students. Weaver and Ali then overstated the number of student registrations and courses allegedly taught at the SCMS on behalf of the CCP Adult Basic Education program. The indictment charges that at least $224,000 in public funds were used to pay CCP teachers' salaries for adult education courses that in fact never took place.
"The only ones taken to school here were the taxpayers," said Meehan. "The taxpayers who fund programs like this learned how people can systematically steal not just government grant money but someone's opportunity to improve themselves through education. These defendants were entrusted with that opportunity and instead of nurturing it, they stole it."
According to the indictment, the CCP paid teachers' salaries for courses that were never taught by family members of Weaver and Ali, including Eugene Weaver III, the son of  Delores Weaver, and Lakiha Spicer and Azheem Spicer, the children of Faridah Ali. The indictment further alleges that by overstating the number of adult education courses taught at the SCMS, Weaver and Ali were able to inflate the amount of rent paid by the CCP to the SCMS for the use of its school building to teach CCP courses, and then diverted rent payments to their personal benefit.
The indictment states that, in addition to the CCP, the United States Department of Education and the Commonwealth of Pennsylvania were also victimized by the scheme because the U.S. Department of Education provided funding, through the Pennsylvania Department of Education, to pay for the Adult Basic Education program operated by the CCP.
Delores Weaver and Faridah Ali are charged with two counts of conspiracy, thirteen counts of mail fraud, eight counts of wire fraud, and three counts of theft concerning programs receiving federal funds. They face a maximum sentence of 460 years imprisonment.
Lakiha Spicer is charged with two counts of conspiracy, four counts of mail fraud, one count of theft concerning programs receiving federal funds, and one count of false statements to the grand jury. She faces a maximum sentence of 105 years imprisonment.
Azheem Spicer is charged with two counts of conspiracy, three counts of mail fraud, two counts of wire fraud, and one count of theft concerning programs receiving federal funds. He faces a maximum sentence of 120 years imprisonment
Eugene D. Weaver, III, is charged with two counts of conspiracy, six counts of wire fraud, and one count of theft concerning programs receiving federal funds. He faces a maximum sentence of 140 years imprisonment.
Zaynah Rasool is charged with one count of false statements to the grand jury. She faces a maximum sentence of five years imprisonment.
INFORMATION REGARDING THE DEFENDANTS
NAMEADDRESSAGE
Delores WeaverPhiladelphia., PA61 years old
Faridah Ali, a/k/a "Rita Spicer"Melrose Park, PA54 years old
Lakiha Spicer, a/k/a "Kiki"New York, NY 27 years old
Azheem Spicer, a/k/a "Osh"Philadelphia., PA30 years old
Eugene D. Weaver, IIIOakland, CA30 years old
Zaynah RasoolPhiladelphia., PA51 years old
The case was investigated by the Federal Bureau of Investigation, the Internal Revenue Service, and the Department of Education with assistance from the Philadelphia District Attorney's Office, Philadelphia Police Department and has been assigned to Assistant United States Attorneys Frank A. Labor III and Anthony J. Wzorek.
UNITED STATES ATTORNEY'S OFFICE
EASTERN DISTRICT, PENNSYLVANIA
Suite 1250, 615 Chestnut Street
Philadelphia, PA 19106
Contact: RICH MANIERI
Public Affairs
215-861-8525
Top
Printable view
Share this page
Last Modified: 03/03/2005
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov